WAIVER

Supreme Court, U.S.
FILED

SEP 2 2 2021

Supreme Court of the United Stat

SOFFICE OF THE CLERK

No. 21-5510

Prayed
(Petitioner)

v.

Department of Labor
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
o

I am filing this waiver on behalf of all respondents.
I only represent some respondents, I am filing this waiver on behalf of the following
respondent(s):
Alaska Railroad Corporation

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not preSently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signet
Date:

/2/ -2/

(Type or print) Name William J. Evans
114-Mr.
❑ Ms.
Firm

❑ Mrs.

0 Miss

Sedor, Wendlandt, Evans & Filippi, LLC

Address 500 L St, STE 500
City & State Anchorage, Alaska
Phone 907-677-3600

Zip 99501
Email evans@alaskalaw.pro

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S-COUNSEL OR TO PETITIONER IF
PROSE. PLEASE INDICATE BELOW THE NAMES) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

RECEIVED
OCT - 1 2021
OFFICE

CLERK

OFCO
SUPREME
COURT, U.S. •

